Review Of Outpatient Cardiac Rehabilitation Services at Robert Wood Johnson University Hospital Hamilton,"(A-02-03-01016)
Department of Health
and Human Services
"Review Of Outpatient Cardiac Rehabilitation Services at Robert Wood Johnson University Hospital Hamilton," (A-02-03-01016)
December 19, 2003
Complete
Text of Report is available in PDF format (375 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed the Robert Wood Johnson University
Hospital Hamilton (Hospital) for outpatient cardiac rehabilitation services.  Medical record documentation we examined
showed no evidence that a physician personally sees a patient periodically throughout the program.  In addition, we
reviewed a sample of 10 Medicare beneficiaries who received outpatient cardiac rehabilitation services during calendar
year 2001.  We found that medical and billing records provided by the Hospital in support of eight beneficiaries receiving
cardiac rehabilitation services totaling $4,575 did not always support services performed, as well as the diagnoses used
to establish the patients' eligibility for cardiac rehabilitation.  We recommended that the Hospital work with the
fiscal intermediary to ensure that the Hospital's outpatient cardiac rehabilitation program is being conducted in accordance
with Medicare coverage and billing requirements.  The Hospital agreed with our recommendation.